OIG Investigative Reports, New York Woman Convicted of Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
NEWS RELEASE:
March 9, 1999
CONTACT PERSON:
U.S. Attorney's Office
Marvin Smilon, Herbert Hadad
Public Information Office
(212) 637-2600
Stanley J. Okula, Jr.
(914) 993-1961
New York Woman Convicted of Student Loan Fraud
MARY JO WHITE, the United States Attorney for the Southern District of New York, announced that GAIL ROBERSON was sentenced yesterday in White Plains federal court to 18 months in prison for her role in a scheme to defraud the United States Department of Education and certain financial institutions in connection with applications for college student aid. ROBERSON pled guilty to a one-count mail fraud Indictment on November 17, 1998.
According to the Indictment and a Complaint previously filed in the case, ROBERSON submitted four federal student loan applications between September 1997 and February 1998, using her own name and the names of certain relatives. The student aid applications, which sought a total of $69,000, were bogus in that they falsely represented that the person named on the application intended to attend medical school at the American University of the Caribbean ("AUC"), in St. Maarten, whereas, in fact, neither ROBERSON nor the persons listed on the application intended to do so. In addition, the applications submitted by ROBERSON contained forged certifications from officials of AUC indicating that the persons listed on the applications were attending AUC, whereas, in fact, none of the persons listed ever attended AUC. As a result of. the scheme, ROBERSON fraudulently obtained approximately $18,500.
Court records also indicated that after being charged in the case and released on bond, ROBERSON tried to get the charges against her dismissed and her bail restrictions lessened by presenting to the Court and the United States Attorneys Office medical records that falsely indicated she was suffering from a brain tumor when, in fact, she was not.
In addition to the 18-month sentence, which was ordered to run consecutive to a current two-to-four year state sentence for credit card fraud, United States District Judge CHARLES L. BRIEANT sentenced ROBERSON to three years of supervised release and restitution in the amount of $18,500.
ROBERSON is a resident of Poughkeepsie, New York.
Ms. WHITE praised the United States Department of Education for its efforts in this investigation.
Assistant United States Attorney STANLEY J. OKULA, JR. is in charge of the prosecution.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov